Executive Report



Return to the USDOJ/OIG Home Page



Community Oriented Policing Services GrantCamden, New Jersey Police Department
GR-70-01-002January 5, 2001Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Camden Police Department.  The purpose of the grants is to enhance community policing.  Camden was awarded a total of $5,781,086 to hire 34 new police officers and redeploy the equivalent of 41.2 existing full-time officers from administrative duties to community policing.

We found the Camden Police Department to be in material non-compliance with COPS' grant requirements.  We reviewed Camden's compliance with eight essential grant conditions and found weaknesses in each of the areas we tested.  As described below, these weaknesses included instances of non-compliance and instances when the grantee failed to maintain adequate records to demonstrate compliance.  As a result, we question $2,083,051 in grant funds received and recommend an additional $3,698,035 be put to better use.1   We also recommend that Camden remit to the federal government $12,945 in excess interest earned.


For the hiring grants, we were unable to determine if Camden maintained or increased its budget for locally funded officer positions because Camden could not provide reliable budget and position data. 
	For the hiring grants, we were unable to determine if the number of officers on-board increased by the number of positions funded by the COPS grants because Camden could not provide reliable budget and position data. 2
We could not determine the source, amount, or date of Camden's local match for its AHEAD grant.
	Camden's reimbursement requests contained unsupported costs.  In addition, Camden overestimated its fringe benefit costs in its grant application, and earned excess interest over that allowable by grant regulations. 
	We could not determine if Camden was retaining its nine AHEAD positions and if it would be able to retain its 25 UHP positions.
	Camden purchased and fully implemented computer equipment to allow it to redeploy existing officer positions from administrative duties to community policing.  However, Camden was not tracking redeployment and could not demonstrate how much administrative time, if any, was being saved.  Camden also had not developed a redeployment plan for its MORE 96 grant.
	Camden did not enhance community policing by the number of officers funded by the grants.
	Some of Camden's required grant monitoring reports were not accurate and/or timely, or were not filed.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I. 




Footnotes

  The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.
  According to COPS' grant requirements, grantees are to maintain records that assure the responsible use of grant funds, and demonstrate funds are spent in conformance with grant conditions.